Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL


       \




 VARIATION AMONG HOME HEALTH

AGENCIES IN MEDICARE PAYMENTS

   FOR HOME HEALTH SERVICES





                 @ SERVICE$
                          “&*
             &
            +              ‘f
           9
           g                    JUNE  GIBBS BROWN
           <                    Inspector  General
           z
           % $
            %++                          JULY 1995
              ‘~~d~~
               >                       OEI-04-93-00260
                      OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human SeMces’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating componen~ the Offke of Audit SeMces, the
Offkx of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS
The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fi-aud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General.

Atlanta Region                               Headquarters

Paula Bowker, Project Leader                 Jennifer Antico, Program Specialist
Ron Kalil, Team Leader                       Brian Ritchie, Program Analyst
Tammy Bomey, Statistician                    Linda Moscoe, Program Analyst
Christopher Koehler, DRIG                    Barbara Tedesco, Statistician
Peggy Daniel, Program Analyst
James Green, Contractor
              EXECUTIVE                         SUMMARY


PURPOSE

To describe variation among home health agencies in reimbursement for home health
services paid for by Medicare and assess potential causes of the variation.

BACKGROUND

Expenditures for Medicare home health care are increasing at an extraordinary rate.
Medicare payments will total an estimated $14.4 billion in 1995, up from $3.3 billion in
1990, an increase of over 4 fold in only 5 years.

The Health Care Financing Administration (HCFA) is involved in a concerted effort
to examine the home health care benefit, As part of that initiative, the Office of
Inspector General (OIG) has developed a coordinated action plan to integrate
investigations, audits, and inspections involving Medicare home health care. This
inspection is part of that OIG coordinated effort.

METHODOLOGY

We analyzed HCFA data on Medicare reimbursement for home health sewices in
calendar year 1993. The HCFA data represented services provided by 6,803 HI-L% to
over 3 million beneficiaries. We arrayed the HHAs in ascending order based on their
average reimbursement per beneficiary and divided them into four groups. We then
analyzed a number of factors, including agency characteristics, beneficiary
characteristics, and quality of services, and how those factors varied among the four
groups. We called the groups lower, middle, high-1 and high-2.

To place this analysis into an appropriate broader context, we incorporated into this
report findings from other recent OIG work on this subject. Our recommendations
are based on the entire body of OIG analysis of home health services.

FINDINGS

The Highest Group Of Home Health Agencies Receive@ On Averagq Five Times
The Amount Of Medicare Reimbursement Per Beneficiary As The Lower Group

Average reimbursement per beneficia~ among the groups varied significantly. In the
high-2 group, the average reimbursement was $7,978. The average reimbursement in
the lower group was $1,534. The HHAs in the high-1 and high-2 groups, which
represented one third of all the HHAs analyzed, received more than half (51.5
percent) of the nearly $9.7 billion reimbursed by Medicare in 1993. The two thirds of
the HI-L% in the lower and middle groups provided home health semices at or below
the national average reimbursement per beneficiary of $2,957.


                                            i
Average Reimbursement Per Visit Was Similar Among HHf@ But The Number Of
Visits Varied Widely

The average number of visits nationally was 50 per beneficiary. The average number
of visits per beneficiary by HHAs in the highest group was about five times greater
than that by HHAs in the lower group. In the highest group that average was 141
visits, as compared to 27 visits in the lower group. Nearly two thirds of all the HHAs
averaged 33 visits per beneficiary, well below the national average of 50.

The average reimbursement     per visit nationally for all 6,803 HHAs in 1993 was $58.06.
The average reimbursement     per visit in each of the four groups of HHAs was within
$2 of the national average.

Higher Group Home Health Agencies Tended To Be Proprietary For-Profi~ Non-
affiliated Organizations Which Provided Seven Times More Aide Visits As The Lower
Group And Which Employed A Higher Percentage Of Total FTEs As Aides

Some agency characteristics, such as ownership and affiliation status, were good
predictors of which HHAs received higher reimbursement per beneficiary. Higher-
reimbursement HHAs also had twice as many staff and four times the number of
home health aides, on average, as lower group agencies.

Quality Of Sewice And Beneficiary Characteristics Were Similar Among AU Four
Groups Of HHAs And Did Not Appear To Explain The Variation In Average
Reimbursement

~       which provided home health services at a higher level of reimbursement per
beneficiary did not have fewer deficiencies or complaints than lower reimbursement
agencies. In fact, the percentage of HHAs in the highest group that had at least one
complaint was more than three times the percentage of HHAs in the lower group.
Agencies in the higher-reimbursement groups were also less likely to be accredited.

Beneficiary characteristics such as age, gender, race, qualifying conditions and principal
diagnostic codes did not explain the wide variation in average reimbursement per
beneficiary.

DISCUSSION

The work performed in this inspection must be placed into the broadest conte~
including the battery of OIG work in home health performed over the past year. The
findings from this inspection and all other OIG work in home health present a picture
of a Medicare benefit which is vulnerable to fraud and abuse. For example, over the
past year, we have identified numerous instances of inappropriate home health
payments through audits of provider claims in Florida and Georgia.




                                            ii
b	    In one case we found that 75 percent of the claims submitted by one HHA did
      not meet Medicare guidelines.

b	    In another project we found that 26 percent of randomly reviewed claims in
      Florida did not meet Medicare guidelines. These claims were for beneficiaries
      who were not homebound, unnecessary visits, and visits that were never
      provided.

We have also found several types of fraud among HHAs around the nation. Some of
the fraud we found includes excessive services, services not rendered, use of unlicensed
staff, cost report fraud, falsified plans of care, forged physician’s signatures, and
kickback. Between 1990 and 1994, OIG investigations have led to 25 successful
criminal prosecutions of I-II%% or their employees and the imposition of 3 criminal
penalties. In 1993 and 1994 alone, 39 HHAs or their employees were excluded from
participating in the Medicare or Medicaid program.

We have also looked at how other payers manage home health benefits. For example,
other payers tend to limit the benefit by capping the number of visits or services
allowed per beneficial.   They also emphasize case management and use copayments.

RECOMMENDATIONS

HCFA Should Explore Ways to Address Excessive Utilization and Inappropriate
Variation in Reimbursement Among HHAs.

The work of the OIG’S audit and investigations staff have identified instances of
medically unnecessary care and inappropriate or fradulent billing by specific HHAs.
The data in this report describes more broadly patterns of billing by certain HI+%
which may indicate fraud or abuse. As such, we believe it is prudent for HCFA to
take steps to investigate such patterns and place systematic controls on the home
health benefit to prevent abuse.

First. HCFA Should Intensifv its Efforts to Scrutinize Claims Submitted bv High Cost
Agencies.

HCFA has already begun this effort through its activities under Operation Restore
Trust. We have provided information to HCFA about the agencies in our analysis
which had higher than average per beneficiary reimbursement, for the purposes of
targeting agencies for further review.

Second, HCFA Should Exulore Wavs in Which to Prevent Unscrupulous Agencies
from Enea~ing in Abusive Practices.

In addition to targeting certain agencies for review, HCFA should work to develop
mechanisms to prevent agencies from engaging in practices which result in
inappropriate use of the home health benefit.

                                            ...
                                           111
This can be done in a variety of ways, For example:

b	    Involving Beneficiaries in Detecting and Reporting Unscrupulous Behavio~
      through the use of Explanation of Medical Benefits (which HCFA is currently
      testing), confirmation of visits receive~ and certification of need and eligibility
      for home health care.

b	     Involving Physicians in Detecting and Reporting Unscrupulous Behavior: now
       that HCFA is paying physicians for case management services delivered to
       home health patients, it is in a good position to use physicians to monitor the
       care provided to beneficiaries, report unscrupulous providers, and refer patients
       to agencies with a record of good practice. This will require educational
       outreach to the physician community.

b	     Setting Higher Standards for Participation in the Medicare Program: HCFA is
       now considering its policies with regard to how agencies enter the Medicare
       program and obtain permission to bill for services, and under what conditions
       certain entities may be suspended or dropped from the program.

HCFA Should Continue Its Efforts To Improve The Home Health Benefit and To
Control Frau& Waste and Abuse.

We support HCFA’S efforts in developing potential long term solutions towards
benefit reform which will assist in preventing fraud and abuse by unscrupulous
providers. These HCFA efforts include:

b	     Outcome Measures: We urge HCFA to continue their work in developing
       outcome measures which can be used to assess the performance of individual
       home health agencies.

b	     Pros~ective Pawn ent System: We believe that a home health prospective
       payment system might be the most effective long term model for restructuring
       the benefit and we encourage HCFA to continue their work in testing such a
       system. We believe, however, that it is important that a new system not
       “grandfather” in utilization patterns of the higher-reimbursement agencies. It is
       worth noting that this was an important issue when a prospective payment
       system was being developed for hospitals.

Additional structural reform might also assist in preventing fraud, waste and abuse.

As we indicated in a prior report, “Home Health Agencies: Alternative Coverage and

Payment Policies,” issued in May 1995, HCFA may wish to consider adopting certain

practices of other third party payers.


We also believe that the use of aides deserves further examination, based on the data

presented in this report.




                                            iv
We plan to work together with HCFA and the Assistant Secretary for Planning and
Evaluation (ASPE) on further analysis which can help shape these alternatives.

Budget Implications

The elimination of frau~ waste and abuse in the home health benefit can create
significant cost savings for the program. Such an elimination would ultimately reduce
the average number of visits for beneficiaries overal~ while ensuring that appropriate
services are still delivered to beneficiaries in need. To estimate the potential impact
of effective action, we developed the following calculations.

b	     We estimated Medicare expenditures based on different levels of average
       number of visits per beneficiary nationwide. For example, if the national
       average number of visits had been 45 instead of 50, Medicare would have saved
       over $1 billion in 1993 in Medicare payments for home health services.

b	     The average number of visits per Medicare beneficiary for almost two-thirds of”
       home health agencies (the lower and middle groups) in 1993 was 33. If the
       average number of visits by the remaining one-third of HHAs had also been 33
       visits per beneficiary, Medicare cost would have decreased by about $3.3 billion
       in 1993.

w	     However, based on HCFA actuarial figures, the average number of visits per
       beneficiary is increasing annually. Based on our calculations for 1993 data,
       each time the national average number of visits per beneficiary increases by
       one, it costs the Medicare program an additional $191.4 million. If this upward
       trend in the number of visits were to continue unabated, the potential increase
       in the cost to Medicare would be substantial.

b	     Using HCFA projections of $14.4 billion in Medicare home health care
       expenditures for 1995, an average number of 33 visits per HHA would result in
       a savings of nearly $5.0 billion.

AGENCY COMMIWrS

We received comments on the report from HCFA and ASPE. HCFA concurred with

our recommendations, but felt that the report did not fully distinguish between

variation that is appropriate and variation that suggests excessive utilization or

inappropriate reimbursement levels. HCFA concluded, however, that when

considered with the other OIG work in home health over the last several years, the

findings in this report do suggest enough of a pattern to recommend that HCFA

examine, and address where appropriate, excessive utilization and inappropriate

variation in reimbursement among HHAs.


ASPE concurred that the study showed clear evidence of patterns in home health

agency practices, and that such patterns should be investigated and more thoroughly



                                            v
understood. Noting that our data were limited, ASPE stated that recommendations
for change should be approached cautiously. ASPE expressed concern for the welfare
of beneficiaries, and stated that any recommendations which would directly impact
them be eliminated. ASPE suggested two follow-up reviews to our study -- one a
regression analysis on potential causes of variation in C@ and two an intensive review
to target high-cost HHAs.

We plan to work with HCFA and ASPE concerning additional efforts in this area, and
have so indicated in the report. We have also made some revisions to the text of the
report based on their comments, particularly in the focus of our recommendations.

The full text of HCFA and ASPE comments is contained in appendix C.




                                          vi
                          TABLE                    OF CONTENTS

                                                                                                                      PAGE
EmEcmwE              suMMARY


INTROIXJCI’XON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    “ Highest group HHAs received five times the reimbursement                                  aslower groups            . . 7


    �   Number ofvisits varied amongHHAs,                      but reimbursement             did not      . . . . . . . ...9


    �   Higher group HHAs tended to be proprietary for-profit, non-affiliated                                   . . . . . . 11


    �   Quality of service did not appear to explain the variation                          . . . . . . . . . . . . . . . . 13


    �   Characteristics    of beneficiaries were similar among all HHAs                           . . . . . . . . . . . . . 14


DISCUSSION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...16


RECOMMENDATIONS                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...18


AGENCY COMMENTs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...20


APPENDICES


A Details Of Possible Causes OfVariation                          In Average Reimbursement                   . . . . . . . A-1


B: Calculation Of Estimated Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C       Agency Comments            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l
                         INTRODUCTION

PURPOSE

To describe variation among home health agencies in reimbursement for home health
services paid for by Medicare and assess potential causes of the variation.

BACKGROUND

Home Hml.th Ck.re

Home health care is nursing, therapeutic, medical social, or aide services which are

provided in a patient’s home. Home health care allows people with limited mobility to

live independently while still receiving professional health care services. Section 1861,

Title XVIII of the Social Security Act authorized Medicare Part A payments for home

health care services. If a beneficiary does not have Part A entitlement, home health

semices may be covered by Medicare Part B.


To receive Medicare reimbursement, home health agencies (HHAs) must provide a

skilled care service to a homebound beneficiary. Beneficiaries who need intermittent

skilled nursing services, physical therapy, speech therapy, and occupational therapy

may qualify for home health services under Medicare. Registered nurses and licensed

therapists must provide or supervise skilled services. Nursing and home health aide

sewices must be provided on an intermittent (i.e., not daily) or part-time (less than 8

hours per day) basis.


Beneficiaries may receive an unlimited number of home health visits. However,

Section 1861 of the Social Security Act authorizes the Department to set limits on

allowable costs incurred by a provider of services for which payment may be made

under the Medicare program. Under this authority, the Department has maintained

limits on HHA per-visit costs since 1979.


Home health agencies may supplement skilled services with medical social services and

home health aide services. Medical social services are provided by a qualified medical

social worker or a social work assistant under the supemision of a qualified medical

social worker. Medical social services are necessary to resolve social or emotional

problems which are expected to be an impediment to effective treatment of a

beneficiary’s medical condition. Home health aide services are hands-on personal care

or services which are needed to maintain a beneficiary’s health or to facilitate

treatment. Home health aide services include personal care (bathing, changing bed

linens, feeding, etc.), changing dressings for simple wounds, assistance with

medications, assistance with some therapy activities, and routine care of prosthetic and

orthotic devices.





                                            1
                                            1
All home health services must be specified in a plan of care which a physician must
sign. Physician certification must be updated every 62 days. According to current
Medicare rules, physicians who sign a plan do not have to actually see the patient for
whom the plan was written. This holds true for both the initial plan as well as
subsequent updates.

Growth Of Hotne Health Care

Home health care spending by all insurers nationwide is skyrocketing. It is increasing
at a greater rate than any other type of health care in the United States. In 1993,
expenditures for home health care increased 23.8 percent over the previous year,
according to HCFA’S Office of the Actuary. During that time, expenditures for all
types of health care increased by 7.8 percent. Hospital and physician care increased
by 6.7 percent and 5.8 percent respectively in 1993.

Expenditures for home health care paid for by Medicare are also increasing at an
extraordinary rate, beginning in 1989 with the settlement of a major court case,
Duggan v. Sullivan, as illustrated by the following graphic. In this case, Medicare
beneficiaries and others sued the Department claiming that the Department’s
interpretation of “part time and intermittent” was in conflict with the intent of
Congress and the wording of the law. The Department settled the litigation and
revised the coverage guidelines as a result.

                   MEDICARE                HOME      HEALTH          EXPENDITURES

                       Expendlture6        (In Blltlorm)
           S16
                       I
                                                                                S14.4
           s14-


           s12-
                                                                        S1

           slo-                                               $9

             S8 -
                                                  S7
             $6-
                                      *4
             S4 -          S3.

             *2    -



                           1990       1991        1982        1993      1994   1996   est

                                                       YEAR




                                                         2

Home health care is one of the fastest growing segments of health care paid for by
Medicare. Medicare payments will total an estimated $14.4 billion in 1995, up from
$3.3 billion in 1990, an increase of over 4 fold in only 5 years. The Health Care
Financing Administration predicts that expenditures will continue to rise even more
dramatically, reaching an estimated $18.8 billion in 1996.

Hmlth Clue FtinchgAdmMtdon            Revkws of Home Health Clrre

The Health Care Financing Administration (HCFA) administers the Medicare
program, and has funded a number of studies in recent years to examine home health
care services. For example, HCFA has a demonstration study underway to test a
prospective payment system for home health care. Another HCFA research team is
developing and testing a set of outcome-based quality measures for home health care.
This team expects to examine quality from the perspectives of providers, patients,
regulators, and payers. HCFA is also sponsoring a three-year study to test a nurse-
managed model of home health care. Firtally, HCFA conducts an annual survey to
determine satisfaction of Medicare beneficiaries.

The Administrator of HCFA also convened a task force to complete a comprehensive
examination of home health care from both a policy and an operations perspective.
The task force consists of staff from all HCFA components that deal in some way with
home health.

OtherHome Health Stud&s

Considerable work has been done toward analyzing and understanding variations in
the use of and reimbursement for home health services. For example, in a report to
Congress in 1994, the Prospective Payment Assessment Commission (PROPAC)
examined the variation in home health agency costs and the relationship between costs
and Medicare reimbursement. 1 That report found that many factors affected agency
costs, such as geography, economies of scale, and local market characteristics. The
report concluded that, “...the current payment system may not be rewarding efficiency
and may be overcompensating the less efficient agencies.”

Authors Henry Goldberg and Robert Schmitz in their article “Contemplating Home
Health PPS: Current Patterns of Medicare Semite Use,” analyzed home health care
episodes as part of a HCFA prospective payment demonstration project. They found
that, in general, rural agencies, proprietary agencies, larger agencies, new agencies and
free-standing agencies had longer episodes than agencies that were urban, not-for-
profit, small, older or hospital-based. They also found that the number of visits per
beneficiary was the cause of the variation in reimbursement per episode.




   1 “InterimAnalysisof PaymentReform for Home Health SeMcesy CongressionalReport C-94-02.
ProspectivePaymentAssessmentCommission.P. 31.

                                            3
Other OIG Wo& In Home Health

Because of the phenomenal growth in Medicare home health expenditures and
concerns about possible fraud, waste and abuse, the HCFA Administrator asked the
Office of Inspector General to join HCFA and its task force in a concerted
examination of home health care. Accordingly, we developed a strategic home health
plan that incorporated audits, investigations, and inspections of Medicare home health
care policies and operations.

This report describes the extent of the variation in average reimbursement per
beneficiary among 6,803 home health agencies in 1993 and the relationship between a
number of factors which could potentially cause that variation.

METHODOLOGY

To measure the variation in reimbursement for home health services to Medicare
beneficiaries, we used average reimbursement per beneficiary. We used average
reimbursement per beneficiary because use of averages is a recognized and easily-
understood method of mathematically representing a large number of data elements.

To determine     the extent of variation among HHAs in Medicare average
reimbursement      per beneficiary for home health services, we first identified all HHAs
in the United    States that were certified to participate in the Medicare program. We
used HCFA’S      On-line Survey and Certification Reporting System (OSCAR) for 1993
and identified   6,803 HHAs.

We then identified all episodes of care reported by the 6,803 HHAs for Medicare
beneficiaries. We used HCFA’S National Claims History data file and identified
3,263,100 episodes of home health care in 1993. For our calculations of variations in
HHA average reimbursement and visits per beneficiary, we considered each episode
of home health care to be equivalent to one beneficiary.

Next we attempted to divide the HHAs into three groups of approximately equal
numbers of agencies, which we called lower, middle and higher (See Table 1). We
arrayed the 6,803 HHAs in ascending order based on average reimbursement.       We
arbitrarily selected three groups as a basis for comparing agencies. However, using
SAS software, we observed a skewed distribution for our dependent variable --
average reimbursement per beneficiary. Accordingly, we then divided the 6,803 HHAs
into four groups for analysis. We called the four groups lower, middle, high-1, and
high-2.

We performed various statistical analyses on the 6,803 HHAs, including a univariate
analysis and analysis of variance. Our use of the analysis of variance procedure was
not as robust as it could have been because we could not assume the population
variance among the four groups was equal. We did not validate the data obtained
from HCFA data bases.


                                              4

The four groups are shown in table 1. Also displayed in table 1 are the percentage of
the 6,803 HHAs in each of the four groups and the percentage and number of all the
beneficiaries in the four groups.




                                 Lower        Middle      Higher Group         Totals

                                 Group        Group

                                 HHAs         HHAs



 Number of Hl+L%             I    2.270   I     2.262   I 1.930 I   341    !   6.803

 Number of Beneficiaries     I 843,833 I 1,347,085 I 948,826 I 123,356 I 3,263,100

 Percent of HHAs                  33.4%        33.3%     28.3%      5.0%   I   100%

 Percent of Beneficiaries         25.8%        41.3%     29.1%      3.8%       1OO$ZO


With few exceptions, only two factors primarily influence average reimbursement per

beneficiary. They are the cost per visit and the number of visits. We looked at both

of these.


Since these agencies differ in a variety of ways, we also examined other factors which

helped explain why the variation exists. We identified these factors through

discussions with HCFA staff, fiscal interrnedia~ staff, and provider staff. These

discussions were supplemented by reviewing statutes, regulations, and policies which

govern the delive~ of home health. In addition, we studied existing research reports,

audits, and other publications which focussed on home health.


Our objective in examining the other factors was to determine statistical relationships

between these factors and the HHAs’ average reimbursement per beneficiary. These

factors are characteristics of the beneficiaries served (including principal diagnoses for

those beneficiaries), characteristics of the HHAs, and quality of home health services

provided. All of the analysis of these data, however, needed to be considered in the

broader context of recent OIG work performed on this subject. We, therefore, drew

from recent OIG work on home health in developing the findings and

recommendations in this report.


Data Lbnitatbns and Future Wok

We recognize that there are numerous potential data elements which could be used to
measure the effect of beneficiary characteristics, agency characteristics, and quality of
home health services on average HHA reimbursement per beneficiary. The data used




                                                 5

in this report are inherently descriptive. As such, they do not purport to show causal
relationships relating to the variation in average reimbursement among HHAs.

For purposes of this report we used only those measures that were readily available
through existing HCFA data sets. For example, in the absence of outcome measures,
which we understand are being developed, we had to use available data. Those data
were numbers of complaints and numbers of Survey and Certification deficiencies, as
recorded by HCFA. We also used data from the two accrediting organizations to
identi~ HHAs which were accredited. Though complaints, deficiencies and
accreditation status may not be optimal, we believe they are reasonable proxies for
quality.

There were no readily available data on other factors which could influence average
reimbursement per beneficiary. For example, the lack of readily available data on
case mix, the presence of a caregiver in the home of the beneficiary, and the use of
other services in lieu of home health (such as SNFS), did not allow us to use those
factors as possible influences on reimbursement or to establish their statistical
relationship to reimbursement.

In addition, there are other factors that maybe      important to consider in explaining
HHA variation which are not discussed in this      report. Factors such as geographic
location and operations of fiscal intermediaries    may play a role. We will consider
these potential influences in future OIG home      health activities.



We conducted our inspection in accordance with the QualityStandardsfor Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             6

                                       FINDINGS


    THE HIGHEST GROUP OF HHAs RECEIVED ON AVERAGE FIVE TIMES
    THE AMOUNT OF MEDICARE REIMBURSEMENT PER BENEFICIARY AS
    THE LOWER GROUP

    Average Reimbursement For Home Health Agencies Varied Widely Among The
    6@3 Home Health Agencies

    b       The average reimbursement        per beneficiary for the four groups ranged from
            $1,534 to $7,978.

    b       Table 2 shows significant variation in average reimbursement per beneficiary
            among the four groups of HHAs. The average reimbursement per beneficiary
            for the high-2 group was about 5.2 times greater than the average
            reimbursement for the lower group. The average reimbursement to HHAs in
            the high-1 and middle groups were 2.7 and 1.6 times greater than in the lower
*           groups.




                                                                             .,,
                                                                             :
                        HHAs Arrayed into Four Groups Based on Their
                       Average Medicare Reimbursement per Beneficiary
                                                                                                                             >
                                           Lower         Middle                  Higher Group       Total
                                           Group         Group                                      Average
                                       1
                                           HHAs      I
                                                         HHAs
                                                                                                        ‘: :: .:..:   .:.:   ;
                                                                      .“
                                                              ... ..:,;     ,.
                                                                                 High-1   High-z         y”;;:::




                                                                           ‘ H
                                                ,.                                                  : :.:.

                                                                           :$




        Average Reimbursement    per        $1,534        $2,514
                                                            “’                   $4,198    $7,978     $2,957
        Beneficiary
        Range of Average                                 $1,982                  $3,164
        Reimbursement per                  <$1,982                                        >$6,484
        Beneficiary                                       $3;63                  $;84



    w        The HHAs which comprised the two high groups represented one third of all
             the agencies, served one third of the beneficiaries, but received 51.5 percent of
             the $9.65 billion reimbursed by Medicare in 1993 for home health services. In
             addition, the 341 HHAs in the high-2 group, which represented only 5 percent
       of all the HHAs, received 10 percent of the total Medicare reimbursement for
       home health services in 1993. The two-thirds of the HI-I& in the lower and
       middle groups received 48.5 percent of the 1993 Medicare reimbursement.

Most HHAs Provided Home Health Care At Less Than The National Average
Reimbursement Per Medicare Beneficiary

b	     The chart below shows that sixty-three percent (4,253) of the HHAs provided
       home health semices at or below the national average reimbursement of $2,957
       per beneficiary.

b	     Thirty-seven percent (2,550) of the HHAs provided home health services above
       the $2,957 national average reimbursement per beneficiary.


        Almost Tw~Thirds Of HHAs Provided Home Health Services For Less
             Than The National Average Reimbursement Per Beneficiary



                     #    of     HHAs
        6000
                                          4263

        4000




        3000                                                            2650
                                                            /


        2000




        1000




                0
                                    S2065                       S44S1
                         HHAs”      Avg     Reimbursement       Per     Beneficiary
     i-i HAs        Arrayed         6eiow     &   Above
     Nationai           Mean        of  S2.957




                                                    8

AVERAGE REIMBUMEMENT PER VISIT WAS SIMILAR AMONG ~
BUT THE NUMBER OF VISITS VARIED WIDELY

Average Number Of Visits By HHAs In The Highest Group Was About Five Times
Greater Than That By HHAs In The Lower Group

b	     In 1993, the 6,803 HHAs provided 164.5 million home heaJth visits to 3.26
       million Medicare beneficiaries. The average number of visits per beneficiary
       for all 6,803 HHAs was 50. See table 3.

b	     The average number of visits ranged horn 27 visits per beneficiary in the lower
       group of HHAs to 141 visits per beneficiary in the high-2 group of HHAs.




                                   Lower         Middle             Higher Group
                                   Group         Group
                               I
                                   HHAs      !
                                                 HHAs           I


                                                          .,”’”,’
                                                          ,.      High-1        High-2
 Average Number of                   27            41                72            141
 Visits Per Beneficiary

b	     Table 4 shows that the ratio of average visits by the top 3 groups of HHAs to
       the visits by the lower group is directly correlated to the ratio of average
       reimbursement by the top 3 groups to that in the lower group. To illustrate,
       HHAs in the high-2 group averaged 5.2 visits per beneficiary to every one visit
       by HHAs in the lower group. Likewise, average reimbursement for high-2
       HHAs was $5.2 for eve~ $1 received by HHAs in the lower group.




     IIGROUPS OF HHAs      I
                           I
                                   REIMBURSEMENT
                                   Average
                                          I
                                                        Ratio
                                                                     I

                                                                         Average
                                                                                   mm
                                                                                    I

                                                                                         Ratio
                                                                                                 II
            High-2                  $7,978                5.2              141            5.2
            High-1                  $4,198                2.7              72             2.6
            Middle                  $2,514                1.6              41             1.7




                                                   9

Over 60 Percent Of HHAs Made Less Than The National Average Number Of Visits
Per Beneficiary

b	    The chart below shows that 62 percent (4,228) of the HHAs averaged 33 visits
      per beneficiary.       This average is well below the national average of 50 visits per
      beneficiary.

�	    Thirty-eight percent (2,575) of the HHAs averaged 81 visits per beneficiary --
      well abo;e the national average of 50.




              Almost ‘IkmThirds Of HHAs Provided Fewer Than The
                National Average Number Of Visits Per Beneficiary

                         #   of   HHAe
             6000
                                              422e
                                                          /
             4000




             3000



             2000




             1000




                    0
                                         as
                              HHAu”       Avg        #   of    Vlaitis     Per   eem-flolary
          HI-3A*        Arrayed       Below           & Above        National
          Mean          Number        of 60          ViSitu




The Average Reimbursement             Per Visit Was Fairly Consistent Across All Four Groups

As illustrated in table 5, the average reimbursement                     per visit varied among the four
groups by only about $2 to $4.




                                                         10

                                                          Higher Group




 Average

 Reimbursement
 Visit

                 per        $56.06       $60.82           $58.28
                                                                    I $56.71

HIGHER GROUP HHAs TENDED TO BE PROPRIETARY                             FOR-PROFIT,      NON-
AFFILIATED ORGANIZATIONS

Some Agency Characteristics Were Good Predictors Of Which HHAs Received
Higher Reimbursement And Provided Higher Numbers Of Visits

b	    The percentage of proprietary for-profit agencies rose from 27 percent in the
      lower group to 85 percent in the high-2 group, as illustrated in table 6.

b	    The percentage of voluntary non-profit and public/government HHAs
      decreased from the lower and middle groups to the higher groups.




        Type of Ownership	            Lower          Middle        Higher Group
                                      Group          Group             HHAs
                                      HHAs           HHAs


      IIProprietary For-Profit       I 26.7%     I    37.5%   \ 65.4%      I    85.4%
      IIVoluntaxy Non-Profit         I 43.8%     I    44.8%   I 24.1%      I    11.7%
        Public/Government             29.5%           17.7%        10.5%        2.9%
        TOTALS                         100%            100%        100%         100%




                                               11

b	        The majority of HHAs in the two higher groups were non-dfiliated        Only a
          small percentage of HHAs in the higher groups were affiliated with a hospital,
          skilled nursing facility or other medical service organization. See page A-2.

b	        The percentage of non-affiliated HHAs rose from the lower group to the higher
          groups. See page A-3.

b	        Over 41 percent of high-2 agencies had branches, as compared to 12.8 percent
          of the lower group HI-IA. See page A-4.

The Two Higher Groups Provided Seven Times More Aide Visits A Lower Group
Agencies And Employed A Higher Percentage Of Total ITEs As Aides

b	        HHAs in the high-2 group provided 7 times more aide visits per beneficiary and
          four times more skilled nursing visits as those in the lower group, as table 7
          below illustrates.




     Home Health Aides              10.4       17.6       37.0       77.5        23.6
     Skilled Nursing                13.3       18.5       29.0       52.9        21.5
     Physical Therapy               2.8         3.9        4.4        7.3         3.9
     All Other Types                0.8         1.4        1.6        3.0    H    1.4
     Average Number for M           27.4       41.3       72.0       140.7       50.4
     Types of Visits




                                             12

b	    Over half of all visits performed by high-2 group agencies were aide visits. See
      page A-5.

b	    High-2 group HHAs averaged 25home health aides (representing        40 percent
      oftheir work force) as compared toan averageof about 7forthe        lower group
      (representing 28 percent of their work force). See page A-6.

Home Health Agencies Generally Provided The Same Types Of SeMces

b	    All HHAs in all four groups and 98 percent of HHAs in all four groups
      provided nursing services and home health aide services, respectively. See page
      A-7.

b	    The majority of the agencies provided therapy services, regardless of group.
      See page A-7.

QUALITY OF HHA SERVICES DID NOT APPEAR TO EXPLAIN THE
VARIATION IN AVERAGE REIMBURSEMENT PER BENEFICIARY

In the absence of outcome measures for Medicare home health services, we used
several proxies for quality. Those proxies were the number of deficiencies and
complaints recorded by the HCFA Survey and Certification Branch, and an HI-IA’s
accreditation status. While we recognize that accreditation is an alternative to
certification through the State survey mechanism, we believe that the popular
perception is that agencies which are accredited hold the promise of providing better
services. This may or may not be the case.

HHAs That Provided SeMces At A Higher Level Of Reimbursement Did Not Have
Fewer Deficiencies

To participate in the Medicare program, HHAs must agree to be surveyed annually to
determine if they are in compliance with Medicare conditions of participation.
Conditions of participation are health, quality and persomel standards and are
prescribed in the Code of Federal Regulations. There are 12 conditions of
participation. Annual suweys of compliance with the conditions are performed by
State survey agencies under contract with HCFA. HCFA expects HHAs to correct
deficiencies identified by a State survey within 60 days of being notified of them, or
sooner if a question of “adequate and safe care” is raised.

When we arrayed HCFA’S Survey and Certification data on HHA deficiencies, we
found no significant difference among the agencies in the four groups. This is
illustrated by table 8. The rows which refer to deficiencies contain data about both
types of deficiencies, that is, conditions deficiencies and standards deficiencies.
Conditions are broad, refer to systems, or address jeopardy to a beneficiary’s health or
safety. Standards are components of conditions.



                                           13

                                         Lower      Middle         Higher Group HHAs
 Deficiency Status                       Group      Group
                                         HHAs       HHAs




 % HHAs With 1 To 6 Deficiencies        \ 45.5% ]     43.8%    I    46.8%      I 42.8%
 9Z0HHAs With 7 Or More                    8.l?ZO      11.0%         12.5%       16.4%
 Deficiencies
 % HHAs with Current Condition             3.3%        3.5%          4.3%        7.0%
 Deficiencies
 YOHHAs with Current Standards             53.4%      54.6%          59.2?lo     58.7%
 Deficiencies


The Percentage Of HHAs In The Highest Group That Had At Least One Complaint
Was More Than Three Times The Percentage of HHAs In The Lower Group

b	     Nearly 60 percent of HHAs in the high-2 group had at least one complaint, as
       compared to about 17 percent of I-II%% in the lower group. See page A-8.

Agencies In The Highest Group Were Much k           Likely To Be Accredited Than
Those In The Lower Groups

b	     Both average reimbursement and average number of visits per beneficiary of all
       accredited HHAs were lower than the average reimbursement and average
       number of visits of non-accredited HHAs. See pages A-9 through
       A-Il.

CHARACTERISTICS OF BENEFICIARIES                SERVED BY HHAs WERE SIMILAR
AMONG ALL FOUR HHA GROUPS

b	     Little difference existed among the four groups of HHAs in the age of
       beneficiaries served. See page A-12.

b	     There was a slight increase in the percentage of episodes for female
       beneficiaries and nonwhite beneficiaries from the lower group to the higher
       groups. See pages A-13 and A-14.




                                          14

b	   The percentage of deaths while in care of an HHA increased slightly from the
     Iowergroup tothe higher groups. Seepage A-15.

b	   The percentage of episodes for beneficiaries who were Medicare-eligible
     because they were aged, disabled or in end-stage renal disease was quite similar
     among the four groups. Seepage A-16.

b	   Lastly, an analysis of principal diagnostic codes, a proxy for medical condition,
     did not suggest that beneficiaries inthe higher groups were any sicker orinany
     greater need ofmedical services than those beneficiaries inthe lower and
     middle groups. See pages A-17 through A-21.




                                          15

                             DISCUSSION


This report shows wide variation among 6,803 home health agencies (HHAs) in the
average reimbursement per Medicare beneficiary in 1993. The major reason for the
variation was the average number of visits per beneficiary that HHAs provided. Some
HHAs made substantially more visits per beneficiary, on average, than others.

The work performed in this inspection must be placed in the broadest context,
including the battery of OIG work in home health which has been performed over the
past year. The findings horn this inspection coupled with the findings from other OIG
work present a picture of a Medicare benefit which is vulnerable to fraud and abuse.
While variation in reimbursement among HHAs is not inherently bad, our analyses
certainly suggest that excessive numbers of visits are being provided by some HHAs in
some cases. Again, this conclusion is strengthened when considered with other OIG
findings regarding abuse of the benefit and outright fraud. Examples of findings from
other OIG work will make this clearer.

Over the past year, we have identified numerous instances of inappropriate home
health payments through audits of provider claims in Florida and Georgia. For
example, an audit of one HHA in Florida revealed that of $45.4 million claimed in
1993, well over half, $25.9 million, did not meet reimbursement requirements. Seventy
five percent of the claims submitted did not meet Medicare guidelines. We found:

b     visits claimed were never made;

b     visits were made to persons who were not homebound;

b     visits which physicians denied having authorized were made; and

b      visits were made to beneficiaries who did not want the services.

In another project in Florida, we randomly selected HHA claims in the state and
found that 26 percent of claims did not meet Medicare guidelines. Inappropriate
claims included:

b      visits to beneficiaries who were not homebound;

b      visits to beneficiaries who did not need the services that were delivered; and

b      visits claims for services not provided.

Based on these audit findings, we recommended that HCFA require physicians to have
knowledge of beneficiaries’ condition prior to certi~g a plan of care, require fiscal
intermediaries which review Florida claims to noti~ beneficiaries when claims are paid



                                             16

on their behalf, and require fiscal intermediaries   to perform in-depth reviews of claims
horn HHAs in Florida.

In an audit of an HHA based in Georgia, we found the agency claimed approximately
$14 million in unallowable costs during one cost reporting year. Those unallowable
costs included expenses for

b      theater tickets,

b      alcoholic beverages,

b      bags of Vidalia onions for legislators, and

b      gourmet popcorn for physicians.

We have found several types of fraud among HHAs, including

b      cost report fraud,

b      excessive services,

b      services not rendered,

b      use of unlicensed staff,

b      falsified plans of care,

b      forged physicians’ signatures, and

b      kickbacks.

Our investigative work has led to indictments and possible exclusions from the
Medicare program. Between 1990 and 1994, OIG investigations led to 25 successful
criminal prosecutions of HHAs or their employees and the imposition of 3 civil money
penalties. In 1993 and 1994 alone, 39 HHAs or their employees were excluded from
participating in the Medicare or Medicaid program.

We have also looked at how other payers manage home health benefits. In our
inspection report, “Home Health Agencies: Alternative Coverage and Payment
Policies,” we describe mechanisms used by other payers. For example, other payers
tend to structurally limit their benefit by capping the number of services or visits
allowed per beneficiary. They also emphasize case management, post payment review,
and ensure beneficiary participation through copayments. In addition they encourage
beneficiaries to report cases of inappropriate services, abuse and fraud.




                                             17

                   RECOMMENDATIONS


HCFA Should Ikplore Ways to Address Excessive Utilization and Inappropriate
Variation in Reimbursement Among HHAs.

The work of the OIG’S audit and investigations staff have identified instances of
medically unnecessary care and inappropriate or fradulent billing by specific HHAs.
The data in this report describes more broadly patterns of billing by certain HI-L%
which may indicate fraud or abuse. AS such, we believe it is prudent for HCFA to
take steps to investigate such patterns and place systematic controls on the home
health benefit to prevent abuse.

First, HCFA Should Intensifv its Efforts to Scrutinize Claims Submitted bv Hi~h Cost
Apencies.

HCFA has already begun this effort through its activities under Operation Restore
Trust. We have provided information to HCFA about the agencies in our analysis
which had higher than average per beneficia~ reimbursement, for the purposes of
targeting agencies for further review.

Second. HCFA Should Explore Wavs in Which to Prevent Unscrwmlous              Agencies
from EnEagin~ in Abusive Practices.

In addition to targeting certain agencies for review, HCFA should work to develop
mechanisms to prevent agencies from engaging in practices which result in
inappropriate use of the home health benefit.

This can be done in a variety of ways. For example:

b	     Involving Beneficiaries in Detecting and Reporting Unscrupulous Behavior:
       through the use of Explanation of Medical Benefits (which HCFA is currently
       testing), confirmation of visits received, and certification of need and eligibility
       for home health care.

b	     Involving Physicians in Detecting and Reporting Unscrupulous Behavior: now
       that HCFA is paying physicians for case management services delivered to
       home health patients, it is in a good position to use physicians to monitor the
       care provided to beneficiaries, report unscrupulous providers, and refer patients
       to agencies with a record of good practice. fiis wifl require educational
       outreach to the physician community.

b	     Setting Higher Standards for Participation in the Medicare Program: HCFA is
       now considering its policies with regard to how agencies enter the Medicare
       program and obtain permission to bill for sewices, and under what conditions
       certain entities may be suspended or dropped from the program.


                                             18
HCFA Should Continue Its Efforts To Improve The Home Health Benefit and To
Control Frau@ Waste and Abuse.

We support HCFA’S efforts in developing potential long term solutions towards
benefit reform which will assist in preventing fraud and abuse by unscrupulous
providers. These HCFA efforts include:

b	     Outcome Measures: We urge HCFA to continue their work in developing
       outcome measures which can be used to assess the performance of individual
       home health agencies.

b	     Pros~ective Pa vrnent Svstem: We believe that a home health prospective
       payment system might be the most effective long term model for restructuring
       the benefit and we encourage HCFA to continue their work in testing such a
       system. We believe, however, that it is important that a new system not
       “grandfather” in utilization patterns of the higher-reimbursement agencies. It is
       worth noting that this was an important issue when a prospective payment
       system was being developed for hospitals.

Additional structural reform might also assist in preventing fraud, waste and abuse.

As we indicated in a prior report, “Home Health Agencies: Alternative Coverage and

Payment Policies, “ issued in May 1995, HCFA may wish to consider adopting certain

practices of other third party payers.


We also believe that the use of aides deserves further examination, based on the data

presented in this report.


We plan to work together with HCFA and the Assistant Secretary for Planning and

Evaluation (ASPE) on further analysis which can help shape these alternatives.


Budget Implications

The elimination of fraud, waste and abuse in the home health benefit can create
significant cost savings for the program. Such an elimination would ultimately reduce
the average number of visits for beneficiaries overall, while ensuring that appropriate
services are still delivered to beneficiaries in need. To estimate the potential impact
of effective action, we developed the following calculations.

b	     We estimated Medicare expenditures based on different levels of average
       number of visits per beneficiary nationwide. For example, if the national
       average number of visits had been 45 instead of 50, Medicare would have saved
       over $1 billion in 1993 in Medicare payments for home health services.

 k	    The average number of visits per Medicare beneficia~ for almost two-thirds of
       home health agencies (the lower and middle groups) in 1993 was 33. If the
       average number of visits by the remaining one-third of HHAs had also been 33


                                           19
      visits per beneficia~,   Medicare cost would have decreased by about $3.3 billion
      in 1993.

F	    However, based on HCFA actuarial figures, the average number of visits per
      beneficiary is increasing annually. Based on our calculations for 1993 data,
      each time the national average number of visits per beneficiary increases by
      one, it costs the Medicare program an additional $191.4 million. If this upward
      trend in the number of visits were to continue unabated, the potential increase
      in the cost to Medicare would be substantial.

b	    Using HCFA projections of $14.4 billion in Medicare home health care
      expenditures for 1995, an average number of 33 visits per HHA would result in
      a savings of nearly $5.0 billion.

AGENCY COMMENTS

We received comments on the report from HCFA and ASPE. HCFA concurred with

our recommendations, but felt that the report did not fully distinguish between

variation that is appropriate and variation that suggests excessive utilization or

inappropriate reimbursement levels. HCFA concluded, however, that when

considered with the other OIG work in home health over the last several years, the

findings in this report do suggest enough of a pattern to recommend that HCFA

examine, and address where appropriate, excessive utilization and inappropriate

variation in reimbursement among HHAs.


ASPE concurred that the study showed clear evidence of patterns in home health

agency practices, and that such patterns should be investigated and more thoroughly

understood. Noting that our data were limited, ASPE stated that recommendations

for change should be approached cautiously. ASPE expressed concern for the welfare

of beneficiaries, and stated that any recommendations which would directly impact

them be eliminated. ASPE suggested two follow-up reviews to our study -- one a

regression analysis on potential causes of variation in cost, and two an intensive review

to target high-cost HHAs.


We plan to work with HCFA and ASPE concerning additional efforts in this area, and
have so indicated in the report. We have also made some revisions to the text of the
report based on their comments, particularly in the focus of our recommendations.

The full text of HCFA and ASPE comments is contained in appendix C.




                                            20

              APPENDIX          A




      DETAILS REGARDING POSSXBLECAUSES OF THE
VARIATION IN AVEIUIGE REIMBURSEMENT PER BENEFICIARY
            AMONG HOME HEALTH AGENCIES




                        A-1
                           ORGANIZATIONAL AFFILIATION


THE MAJORITY OF AGENCIES IN THE TWO HIGHER GROUPS WERE
NON-AFFILIATED HHAs

When we compared organizational affiliation, we found that the distribution of
agencies affiliated with various types of larger, umbrella health care-related
organizations was quite similar from one group to the next, except for the high-2
group. In the high-2 group, nearly twice the percentage of agencies are in the “other”
category, which is the non-affiliated category.




                                           Lower         Middle       Higher Group
       FACILITY TYPE                       Group         Group            HHAs
                                           HHAs          HHAs




       Government       & Voluntarv*   I     1%      I      1%    I   1%      I   I?zo    II
       Official Health Agency**             23%            13%        12940       12!Z0
                                                                                          I
       Rehabilitation                  I     o%      I      o%    I   o%      I   o%      II
       Hospital-Based                  I 35%         I     36%    I 20%       I   4%      II
       SNF-Based
       Other/Non-affiliated
                                       I
                                       I
                                             2%
                                            31%
                                                     t
                                                     I
                                                            1%
                                                           39%
                                                                  1
                                                                     1%
                                                                  I 60%
                                                                              t
                                                                              I
                                                                                  1%
                                                                                  80%
                                                                                          IIII
       TOTALS                               1009?0         100%       100%        100%

* Government and voluntary is a type of official health agency which is a
governmental HHA that also receives voluntary support.

** Official health agency is usually a county or local public health department.




                                             A-2

                     ORGANIZATIONAL AFFILIATION (Cent)


THE PERCENTAGE OF NON-AFFILIATED HHAs IUSES FROM THE LOWER
TO HIGHER GROUPS

The array of affdiated versus non-affiliated agencies is visually summarized in the
following bar charts. Affiliated HHAs are those that are run by or are part of a
visiting nurses association, a government or voluntary agency, an official health agency,
a rehabilitation facility, a hospital, or a skilled nursing facility. Non-aflliated agencies
are those defined by the HCFA as “other.”



                            HHA FACILITY TYPES

                          Affiliated

                                   vs. Non-Affiliated

                         % of HHAs
                 1 00%

                                                                                   80%
                  80%
                                                                                  tzz


                  60%
                                              —
                                               61%                60%             l%

                  40%
                                    31%



                  20%




                    o%
                             LOW              MIDDLE          HIGH-1           HIGH-2

                                                  HHA     GROUPS

                                _         Affiliated      =   Non-Affiliated

              4 Groups  of HHAs by Average
              Reimbursement   per Beneficiary




                                                   A-3

                              BRANCHES



FORTY-ONE PERCENT OF THE HHAs IN THE HIGHEST GROUP HAD
BRANCHES, OVER 3 TIMES THE PERCENTAGE OF HHAs IN THE LOWER




                             Lower      Middle       Higher Group
                             Group      Group            HHAs
                             HHAs       HHAs
                                                 High-1         High-2
      Percent of HHAs with    12.8%      20.7%   30.4%          41.470
      Branches
                                                 =
                                                            I




                                 A-4

                                  TYPE OF HHA VISIT


OVER HALF OF ALL VISITS PROVIDED BY HIGHER GROUP HHAs WERE
HOME HEALTH AIDE VISITS

HHAs in the lower group provided nearly sixty percent of all their visits as skilled
nursing and physical therapy visits while figher @oup agencies provided less than half
of their visits in those categories.




 Type of Visit                    Lower         Middle           Higher Group         Total
 Listed in Descending             Group         Group            HHAs                 Average
 Order by Utilization             HHAs          HHAs


                              I                        Percentage of Total Visits
 Home Health Aides            I 38.1% I 42.6% I 51.4% I 55.1% II 46.9%
 Skilled Nursing              I 48.6% I 44.8% I 40.3% I 37.7% II 42.7%
 Physical Therapy
                              1
                                   10.2%
                                            I
                                                  9.3%
                                                             1
                                                                  6.1%
                                                                         !   ‘“2’    H==
 Occupational   Therapy            1.4%           1.5%            0.8%       0.5%    ~    1.1%
 Speech Pathology                  0.9%           0.7%            0.5%
                              r             I                ,           1 0.5%      Ik
 Social Services                   0.8?Z0         1.1%            0.9%
                                                                         !   loO%    lk
 TOTALS                            100%           100%            100%       10070        100%




                                                A-5

                                   PROFILE OF FI’Es

HIGHER GROUP AGENCIES HAD A DISPROPORTIONATELY HIGHER
NUMBER OF HOME HEALTH AIDES




 Average Number of FTE           Lower             Middle            Higher Group HHAs
 by Categories                   Group             Group



 Registered Nurses                9.5 (41%)        14.8 (38%)       16.0 (31%)       15.6 (25%)
 Licensed Practical Nurses        2.0 (9%)          2.0 (5%)        5.2 (10%)        8.9 (14%)
 Physical Therapists                 0.9               1.8             1.7               1.2
 Occupational   Therapists           0.2               0.5             0.4              0.4
 Speech Therapists                   0.1               0.3             0.3              0.3
 Social Workers                       0.5              0.8             0.8              1.2
 Aide Workers                     6.5 (28%)        12.9 (33%)       19.2 (37%)       25.1 (40%)
 Pharmacists                         0.02              0.04            0.03            0.03
 Dietitians                  I       0.05 I            0.06     I      0.06      I     0.20
 All Other Staff             I       3.4       I       5.9      I      7.9       I      9.6
 Average Total F’I’EsPer            23.2              39.0             51.5             62.5
 HHA In Each Group




                                             A-6
                                TYPES OF SERVICES


HHAs IN ALL FOUR GROUPS ARE PROVIDING, IN G~                                         THE SAME
TYPES OF SERVICES

HHAs in all four groups provided nursing services and over 98 percent of all HHAs
provided home health aide services. Well over half of all the agencies provided
different types of therapy semices, that is, physical, occupational, and speech, as well.
Details of the percentage of each type of service provided by all four groups, both by
HHA employees and by contract, are in the following table.




  Type of Semite HHAs                  Lower              Middle          Higher Group HHAs
  Provide                              Group              Group
                                       HHAs               HHAs




  Nursing                          /     100%         /     100%      I    100%      I   100%
  Physical Therapy                       86.6%              93.89%         90.8%         90.9%
   Occupational    Therapy               64.O?ZO            74.8%          71.7940       66.6%
   Speech Therapy                        71.7%              83.1%          74.5%         76.5%
   Medical Social Worker                 62.7%              78.5%          81.5%         82.4%
   Home Health Aide                I     98.4%        I     99.5%     I 99.3%        I   98.8%
   Interns & Residents             I     1.0%         I      1.0%     I     1.2%     I   1.5%
   Food Services                   I     25.5%        I     27.3%     I 20.5%        ]   21.1%
   Pharmacy                        I     12.8%        I     15.7?40   I    13.2%     I   12.0%
   Medical Equipment                     17.3%              16.2%          15.7%         15.8%
                                   t                  I               I              I
   Vocational                      I      1.8%        \      1.4%     I     1.5%     I   2.6%
   Laboratory                            13.9%              16.5%           16.7%        20.5%
                                   I                  1               1              1
   Other                                 23.2%              22.7%          26.7%         29.9%



                                               A-7

                                            COMPLAINTS


THE PERCENTAGE OF HHAs IN THE HIGHEST GROUP THAT HAD AT
LEAST ONE COMPLAINT WAS THREE TIMES THE PERCENTAGE OF HHAs
IN THE LOWER GROUP

Anyone may lodge a complaint against an HHA. That is, the beneficiary, a friend or
family member of the beneficiary, or an employee of an HHA is free to lodge a
complaint. HHAs are required by Medicare regulations to inform all home health
recipients of a hotline telephone number they or any other interested party may use to
complain.

As the following figure illustrates, the percentage of HHAs with current complaints
against them was nearly 57, as compared to nearly 17 percent in the lower group of
HHAs.


                                          PERCENT       OF HHAS
                             WITH          CURRENT       COMPLAINTS

                         % of      HHAs
                   70%


                   60s                                              66.9%


                   60%


                   40%


                   so%

                                  16.7%
                   20%


                   10%


                    o%       m
                                 LOW        MIDDLE      HIGH-1   HIQ’H-2
                                              HHA     QROUPS
               4   C3roupsof HHA8 by Average
               Reimbursement    per BonefIoiary




                                               A-8

                                 ACCREDITATION


AGENCIES IN THE HIGHEST GROUP WERE MUCH LESS LIKELY TO BE
Accredited  THAN THOSE IN THE LOWER GROUPS

An W      may choose to achieve or continue their Medicare certification either
through participation in a State agency survey or through a process called “deeming.”
Two not-for-profit organizations have been granted authority by HCFA to deem
HHAs through an accreditation process. The two organizations are the Community
Health Accreditation Program (CHAP), a subsidiary of the National League for
Nursing, and the Joint Commission on Accreditation of Healthcare Organizations
(JCAHO). Agencies that achieve accreditation from CHAP or JCAHO will be
“deemed” compliant with Federal standards, that is the conditions of participation.




                                Lower        Middle         Higher Group
           TYPE OF              Group        Group
         ACCREDITATION          HHAs         HHAs




         Percent of HHAs

         CHAP Accredited           1.3%          1.8%       1.1%       .6%





                                          A-9

                                 ACCREDITATION (Cent)


AVERAGE REIMBURSEMENT PER BENEFICIARY OF ALL ACCREDITED
HHAs WAS LOWER THAN THE AVERAGE REIMBURSEMENT PER
BENEFICIARY OF NON-ACCREDITED AGENCIES

One might assume that, due to the expense incurred for accreditation, agencies which
elect to seek accreditation would have a higher average reimbursement per beneficiary
than agencies which are not accredited. In other words, agencies which seek
accreditation might tend to fall in the higher groups of HHAs. We found, however,
that the average reimbursement per beneficiary receiving home health services in
accredited HHAs was $300 less than beneficiaries receiving services from a non-
accredited EEL%



                                 Accredited     HHAs   Provide
                                   Less   Costly   Services
                         Avg    Reimbursement       Per    Bonoflclary
                S3600
                                                                         SStoel
                                                                /                    /
                                         S2703
                S3000
                                 /                  /


                S2600



                S2000



                s 1600



                s 1000



                 S600


                    so
                               Accredited   HklA~         Non-Auaredlt.d          HHAs




                                                A-10

                                 ACCREDITATION (cent)

AVERAGE NUMBER OF VISITS PER BENEFICIARY OF ALL Accredited
HHAs WAS LOWER THAN AVERAGE NUMBER OF VISITS PER
BENEFICIARY OF NON-ACCREDITED AGENCIES

The average number of visits per beneficiary receiving home health services from an
accredited HHA was 44. The average number of visits per beneficiary receiving home
health services from a non-accredited HI-IA was 54. The mean for the entire 6,803
HHAs was 50 visits per beneficiary.




            Accredited               HHAs           Provide        Fewer       Visits

               Avg Numb.r       of   Visit.   Per    Bonoflciary




                                     44




                                               /

                   Aeorodlted        HHAs            N lon-Acoredlt.d   HHA=




                                                   A-11

                            AGE OF BENEFICIARY


LITI’LE DIFFERENCE EXISTED AMONG THE FOUR GROUPS OF HHAs IN
THE AGE OF THE BENEFICIARIES THEY SERVED

When we compared the average age of beneficiaries being seined by the HHAs in the
four groups, we found a very small variation among the groups.




 Percent of Home          Lower         Middle       Higher Group

 Health Episodes for      Group         Group

 Medicare Beneficiaries   HHAs          HI-W




 Age <65                    6.3%          6.8%       7.5%         8.5%
 Age 65-79                 53.1%         51.2%       49.770       48.89to   51.1%
 Age >79                   40.6%         42.0%       42.8%        42.79Z0   41.9%
 Total                    I 100%    I     100%   I   100%     I   100%      100%

 Average Age of              76.4         76.7        76.5        75.7       76.5
 Beneficiary When
 Home Health Service
 Began




                                         A-12

                           GENDER OF BENEFICIARY



THERE WAS A SLIGHT INCREASE IN THE PERCENTAGE OF EPISODES
FOR FEMALE BENEFICIARIES FROM THE LOWER GROUP TO THE
HIGHER GROUPS

As illustrated by the table below, the percentage of females increased by about 3

percentage points from the lower group to the high-1 group and by about 4

percentage points from the lower group to the high-2 group. On the other hand, the

percentage of males decreased by about 2 percentage points from the lower group to

the high-1 group and by about 4 percentage points from the lower group to the high-2

group.





                                        A-13

                                    RACE OF BENEFICIARY


     THE PERCENTAGE OF EPISODES FOR NON-WHITE BENEFICIARIES
     INCREASED FROM THE LOWER GROUP TO THE HIGHER GROUPS

     The percentage of episodes for non-white beneficiaries nearly doubled from the lower

     group to the high-2 group, as illustrated by the following table. On the other hand,

     the percentage of episodes for white beneficiaries decreased by about 7 percentage

     points from the lower group to the high-1 group and by about 11 percentage points

     from the lower group to the high-2 group.





      Percent of Home             Lower         Middle        Higher Group        Total

      Health Episodes for         Group         Group

      Beneficiaries               HHAs          HHAs



      White
                              1
                                    88.4%
                                            1
                                                  85.6%
                                                          I
                                                              81.3%
                                                                      1
                                                                        77.3%
                                                                                 lk=­
     11Non-White              ]     11.8%   \     14.4%   I   18.7%   I 22.7% II 15.3%
     II

      Total                   I     100%    I     100%    I   100%    I   100%   [ 100%




                                                A-14



.—
                           DEATHS WHILE IN CARE



THERE WAS A SLIGHT DIFFEREN CE IN THE PERCENT OF DEATHS
WHILE IN CARE OF A HOME HEALTH AGENCY BETWEEN THE LOWER
GROUP AND THE HIGHER GROUPS

When we examined home health services that were truncated by death of the
beneficiary, we found only a slight difference.




                            Lower       Middle        Higher Group          Total

                            Group       Group           HHAs

                            HHA



 Percent of Medicare

 Beneficiaries Who Died        2.4%        2.7%       3.2%      3.5%         2.8%

 During a Home Health

 Episode





                                      A-15

                               ELIGIBILITY OF BENEFICIARY


THE PERCENTAGE OF EPISODES FOR BENEFICIARIES WHo WERE
MEDICARE-ELIGIBLE BECAUSE THEY WERE AGED, DISABLED OR IN
END-STAGE RENAL DISEASE WAS SIMILAR AMONG GROUPS

We found only a slight difference among the groups, as shown below.




    Percent of Episodes       Lower        Middle         Higher Group             Total
    for Beneficiaries         Group        Group                                   Average
    Who Are:                  HHAs         HHAs                                I




    Disabled                    5.1%         5.4%         6.1%        6.4?Z0         5.6%

i
    ESRD                  1
                                1.7%   I
                                             2.0%     [
                                                           1.9%   I
                                                                      1.8%     -+    1.970
    Total                       100%         100%         100%        100%     i=




                                              A-16

AVERAGE MEDICARE REIMBURSEMENT PER BENEFICIARY INCREASED
GREATLY FROM THE I.XXVERGROUP AGENCIES TO THE HIGHER
GROUP AGENCIES WITHIN EACH DIAGNOS’IK! CODE

We arrayed all diagnostic codes by total reimbursement by the Medicare program to
the 6,803 HHAs in our inspection. The following table shows the 15 diagnostic codes
with the highest reimbursement amounts representing 52.4 percent of total Medicare
expenditures for home health in calendar year 1993.




 ICD-9-CM                    Lower      Middle      Higher Group             Total
 Diagnostic Code             Group      Group                                Average
                             HHAs       HHAs


 Diabetes Mellitus            $1,575      $2,752   $4,988     $8,386           $3,652
 Heart Failure                $1,423      $2,172   $3,380      $6,047          $2,537
 Chronic Ulcer of Skin        $2,714      $4,145   $5,981      $8,908          $4,610
 Cerebrovascular              $1,946      $2,798   $3,916      $5,831          $3,049
 Disease                                                                ‘F
 Hypertension                 $1,177      $1,860   $2,959      $5,071          $2,513
                         ,                                               t              I
 Puhnonary Disease            $1,474      $%215    $3,327      $5,103   II     $2,498   II
 Osteoarthrosis               $1,027      $1,509   $2,273      $3,979          $1,692
 Urinary System               $2,461      $3,473    $4,815     $7,156          $3,685
 Symptoms
 Fracture of Neck              $1,327     $1,946    $2,691     $3,935          $2,056
 of Femur
 Cardiac Dysrhythmias          $1,124     $1,723    $2,689     $4,352          $2,055
 Other Urinary Tract           $1,486     $2,062    $3,001     $4,765          $2,501
 Disorders
 General Symptoms              $1,224     $1,983    $3,035     $5,108          $2,287
 Osteoporosis                  $1,882     $2,984    $4,124     $7,083          $3,035
 Other Forms of Heart          $1,069     $1,558    $2,560     $4,710          $1,834
 Disease
 Pneumonia                     $1.045     $1.523    $2.152     $3.045          $1.629



                                          A-17

Even when adjusting forsize of the~such          differences remain. Forexample, we
analyzed patterns of payment for the three principal diagnoses which accounted for
almost one quarter of all 1993 Medicare expenditures, diabetes, heart failure, and skin
ulcers, concentrating only on large HHAs (those with at least 1,000 beneficiaries).
These results were consistent with those shown on the previous page. Using the
principal diagnosis of diabetes we found that large HHAs with over $5,000 average
reimbursement per beneficiary were reimbursed an average of $7,17* large HHAs
with an average reimbursement per beneficiary of $3,000 to $5,000 were reimbursed
an average of $4,433; large HHAs with an average reimbursement per beneficiary of
$1,000 to $3,000 were reimbursed an average of $2,293; and all other large HHAs
were reimbursed an average of $1,481.




                                         A-18

AVERAGE REIMBURSEMENT PER VISIT IN EACH DIAGNOSTIC CODE DID
NOT VARY MUCH AMONG THE FOUR GROUPS OF HHAs

When we analyzed the average reimbursement per visit in the top 15 diagnostic codes,
we found little variation.




  [CD-9-CM                       Lower          Middle         Higher Group
  Diagnostic Code                Group          Group
                                 HHAs           HHAs


  Diabetes Mellitus          I    $52.29    !     $56.88   I   $57.51 !     $53.13
  Heart Failure                   $55.39          $59.56       $55.26       $61.37
  Chronic Ulcer of                $57.78          $64.02       $62.22       $58.65   $61.92
  Win
  Cerebrovascular                 $56.07          $62.22       $60.20       $52.52   $59.66
  Disease
  Hypertension                     $47.91         $52.55       $53.81       $55.65   $53.35
                             1              I              I            I
  Pulmonary Disease                $54.79         $60.01       $58.42       $59.36   $58.50
  Osteoarthrosis                   $58.03         $64.62       $59.88       $56.72   $60.98
  Urinary Systems                  $55.83         $61.19       $57.73       $60.44   $58.84
  Symptoms
  Fracture of Neck
  of Femur                         $58.18         $65.34       $64.58       $52.06   $62.93
  Cardiac                          $55.35         $57.82       $57.01       $57.30   $57.11
  Dysrhythmias
  Other Urinary Tract              $55.20         $58.79       $55.96       $57.19   $56.86
  Disorders
  General Symptoms                 $55.54         $59.25       $56.85       $56.57   $57.46
  Osteoporosis               I $56.21       I     $61.73   I $59.68 I       $60.40   $60.05
  Other Forms of                   $56.62         $61.59       $58.83       $57.17   $59.29
  Heart Disease
  Pneumonia                  I     $58.26   I     $63.98   I   $61.31   I   $44.51   $60.38



                                                   A-19

THE NUMBER OF VISlT?3PER BENEFICIARY IN EACH DIAGNOSTIC CODE
INCREASED GREATLY FROM THE LOW GROUP TO THE HIGHER
GROUPS

We found that the average number of visits in the highest group HHAs was from 3 to
5 timesgreaterthan the average number of visits in the lower group agencies.




 ICD-9-CM                  Lower        Middle         Higher Group             Total
 Diagnostic Code           Group        Group             HHAs                  Average
                           HHAs         HHAs


 Diabetes Mellitus     I      30    I       48     I    87    I   158      II       65
 Heart Failure         I      26    I       37     I    61    I   99       II       44
 Chronic Ulcer of             47            65          96        152               75
 skin
 Cerebrovascular              35            45          65        111               51
 Disease
 Hypertension                 25            35          55        91                47
 Puhnonary Disease            27            37          57        86                43
 Osteoarthrosis               18            23          38        70       ~1=      28
 Urinary Systems              44            57          83        118               63
 Symptoms
 Fracture of Neck
 of Femur                     23            30          42        76                33
 Cardiac                      20            30          47        76                36
 Dysrhythmias                                                              -l--
 Other Urinary Tract          27            35          54        83                44
 Disorders
 General Symptoms             22            33          53            90            40
 Osteoporosis                 34            48          69        117               55
 Other Forms of                19           25          43            82            31
 Heart Disease                                                             k
 Pneumonia             I       18   I       24     I    35    I       68   II       27



                                           A-20

HIGH GROUP SERVED ONLY 5% OF THE BENEFICIARIES, BUT RECEIVED
NEARLY 11% OF THE MEDICARE DOLLARS

The 15 diagnostic codes in this analysis had the highest reimbursement of all
diagnostic codes and in the aggregate represented nearly 52 percent of Medicare
reimbursement   for home health care in 1993.




 Percent of Beneficiaries       22.86%      39.75%    32.35%      5.04%

 Receiving Home Health

 Services in the Top 15

 Diagnostic Codes



 Percent of Total               12.67%      33.64%    42.76%     10.93%      100%

 Reimbursement to the

 HHAs for the 15 Top

 Diagnostic Codes





                                         A-21

                             APPENDIX                  B


                    CALCULATION OF ESTIMATED SAVINGS


The formula we used for estimating savings to Medicare that would result from
reducing the average number of visits is illustrated with the following example. Our
calculations are based on a universe of 3.26 million beneficiaries receiving care from
6,803 home health agencies in 1993. The average number of visits per beneficiary
made by the HI-L% was 50.

Our calculations show that decreasing the average number of visits per beneficiary
nationally by one visit results in a savings of more than $190 million. In our example
below, we used an average of 45 visits per beneficiary -- a reduction of about 5 from
the national average of 50.4. By reducing the average number of visits from 50.4 to
45, Medicare would save over $1 billion.

Average Cost Per Home Health Visit:                     $58.66

Average # of Visits Per Beneficiary Episode              x 45

Average Cost Per Beneficiary Episode                    $2,639.70

Total Beneficiary Episodes                              X 3.263.100

Total Reimbursement    Cost (Q45 Visits                 $8,613,605,070

Total Reimbursement    Cost @50.4 Visits                $9.648,423.752

Annual Savings to Medicare                              $1,034,818,682




                                           B-1

          APPENDIX            C



            AGENCY COMMENTS


HEALTH CARE FINANCING ADMINEIRATION

ASSISTANT SECRETARY    FOR PIANNIN G AND EVALUATION




                      c-1
  ~


f 1~
      ,lm~

             %
.4+                  DEPARTMENT OF HEAL’THa liuMAN 5ERV1CES

   4’
                                                                                           Health Care Financine   Admifiistratior

%
%,
  %.,m
   >                                                                                       The Administrator
                                                                                           Washington, D.C.    20201




             DATE

             TO	              June Gibbs Brown
                              Inspector General

             FROM	             Bruce C. Vlade +M
                               Administrator

             SUBJECT	          Office of lns~ector General (C)IG) Draft Report: “Vtiation Among FIome
                               Health Agen~ies in Medicare Payments for Home Health Services”
                               (OEI-04-93-00260)


             This drallreport,which provides information        on the extent and causes of variation in
                 Medicare payments for borne health care, helps to identify the problems we are
                 addressing together as part of Operation Restore Trust.

                 We concur with OIG’S recommendations whh one comment: We believe the report
                 should fully distinguish between variation that is appropriate andvariation that suggests
                 excessive utilization or inappropriate reimbursement levels.

                 Our specific comments on the         recommendations are attached. Thank you for the
                                                report’s

                 oppofinity   to review and comment on this report. 1 look forward to working with you in
                 the future on these issues.

                 Attachment
         )lealth Care Financirw Administration’s (HCm) Comments on Office
                   sp~            (O= DraftReno~ Variation A.moqg
                H~e~                                       vments for
                    (I Home Health .SSmices (OEI-04-93-002~O\




13CFA shouldexplore ways to address excessive utilization and inappropriate variation in
reimbursement among HI-L%,



We concur. brough the Medicare Home Health Initiative, HCFA is explofig ways to
restructure the benefit and payment policy to address the problems identified by OIG
and us. We will consider the suggestions offered by OIG to address excessive utilkation.

HCJ?A currenfly has a demonstration that pays for home health prospectively, on a per
episode basis. TM method of payment would resolve the problem of cwerutilization of
visits regardless of the type of visit. This payment method would also eliminate the need
for agency limits, as suggested in the report. Even though we are a number of years
from implementing this type of prospective payment system (PPS), any system which sets
parameters for number of visits by specific conditiort would be as extensive a project as a
per episode PPS.

OIG Recommendation 2

HCFA should continue its efforts to improve the home health benefit and to control
fraud, waste, and abuse.

       ResPon~

We concur, AS mentioned ti tbe report,    HCFA is striving to achieve a well managed
home health benefit and to control fraud, waste, and abuse through the Me~care Home
Health Initiative and varkmsagencywkie fraud and abuse detectiort and enforcement
activities. We apprmi~te,   and will pay heed @ 01(?s     advice to consider options that
maintain the quality of services and that do not financially punish beneficiaries for
abusive, excessive, or fraudulent practices of providers.
.,..




       Page 2

       Additional C.ommen~



       We do not Believe that the (31G methodology allows onc to firmly draw a conclusion
       that the variation i,n Medicare payments among HHAs, as found by OIG, is a result of
       inappropriate   utMzMion, waste, fraud, and abuse.    As 01(3 itself concedes:

                .      The data used in its report are inherently descriptive and, as such, do not
                       purport to show causal relationships relating to the variation in
                       ,reimbursement among HHAs.

                .      A host of other, nonobserved, factors may contribute to variation in
                       reimbursemen~ including severity of ihess and case mix, payer m~ and
                       the role of other caregivers in the home.

       Further, the report does not fully distinguish between variation that is appropriate and
       variation that suggests excessive utilization or inappropriate reimbursement leveis.

       Nevertheless, the report’s findings, taken in conjunction with the battery of OIG work in
       home health performed over the past year, do suggest enough of a pattern to
       recommend that HCFA examine, and address where proper, excessive utilization and
       inappropriate variation in reimbursement among HHAs.
          ,+,:W<l,
                ,,

                ‘f
    *.+


;
39
 -.“*      Jg
    ‘*l*,d,o
     >
                      DEPARTMENT OF HEALTH a HUMAN SERVICES                                        officeof the SecretatV

                                                                                                   Washington, D.C.   20201




                                                           JUNE    22, 1995

               TO:	            June Gibbs Brown
                               Inspector General

               FROM:	          Assistant Secretary for
                               Planning and Evaluation

                SUBJECT:       O~G Drafi Repo~ “V~ation Among Home Health Agencies in Medicare
                               payments for Home Health Services,” OEI-04-93-00260 - COMMENTS

                We are pleased to have the opportunity to comment on such an important report. The study
                shows clear evidence of patterns in home health agency practice where visit and reimbursement
                rates vary significantly from agency to agency, and appear to have an upward trend in certain
                agency groupings (non-affiliated). This report is significant, and as such, the findings should
                stimulate additional close review which are essential to efforts to control fraud and abuse in
                “Operation Restore Trust.”

                This report clearly demonstrates patterns that should be investigated and more thoroughly
                understood. We understand that this report is a quick effort to try to identi~ reasons for
                variation. However because the data are limited, particularly the data on patient characteristics
                and severity of illness, we suggest that you proceed cautiously when offering recommendations
                for change. Strong unsubstantiated recommendations may prove harmful to patients if
                incorrectly interpreted.

                Accordingly, we make several suggestions regarding revisions to this report:

                �	      First, eliminate the recommendations that affect patients directly (i.e., agency visit limits
                        and beneficiary limit pp. 17-18) and instead suggest a follow-up study to determine a
                        cause and effect relationship with a regression analysis factoring in agency patterns and
                        essential patient characteristics (kg., age, gender, severity of illness).
                  .
                �       Second, the findings identifi interesting agency patterns that could be used to streamline
                        government oversight. Agencies that fall outside the patterns found in the study should
                        be targeted for intensified review. The government representatives could use the
                        following mechanisms to target specific agencies and cases:
                                                                                             ,,
                                1. Establish visit triggers for intensified review by intermediaries to assess
                appropriate volume and levels of cme based on selective criteria, e.g., more than 50, 100, or 150
                visits should have intensive review by qualified case-managers to look at fi.mctional status,
                medications, diagnosis, age, gender, and home environment.
Page 2-- June Gibbs Brown


              2. Increase efforts by auditors, program integrity and fraud and abuse teams to
capture agency mismanagement of the benefit. Target agencies that are outliers. For exampie,
non-aftlliated agencies with high visit averages and branch ofllces, or agencies with high
reimbursement averages, complaints and deficiencies.

�      Third, we suggest that all references to determining causality be eliminated. The
       pqose of the study is stated as “to determine the ~1~                of variation . ..”
       (P. 1) but in fact it did not measure any cause and effect relationships. Other causal
       statements throughout the text should be eliminated to avoid misinterpretations of the
       findings.




Prepared by: RuthI 260-0370
